      NATIONAL CREDIT UNION ADMINISTRATION

               OFFICE OF INSPECTOR GENERAL


                        Review of NCUA’s
                     Official Personnel Folders


            Report #OIG-07-10            October 1, 2007




                          William A. DeSarno
                          Inspector General

Released By:                                   Auditor-in-Charge:



James W. Hagen                                 Dwight Engelrup
Assistant Inspector General for Audits         Senior Auditor
                     TABLE OF CONTENTS
                                         Page

EXECUTIVE SUMMARY                         1

BACKGROUND                                3

PURPOSE AND OBJECTIVES                    4

SCOPE AND METHODOLOGY                     4

RESULTS                                   5

APPENDIX A – MANAGEMENT COMMENTS          10




                             i
                               EXECUTIVE SUMMARY


Official Personnel Folders (OPFs) contain records that document an individual employee’s
Federal government employment history. The OPF follows an employee throughout his or her
Federal career. The OPFs maintained in many federal agencies, including the National Credit
Union Administration (NCUA), are hardcopy (paper) versions. In recent years, Congressional
hearings have looked at OPF maintenance and the feasibility of agencies’ converting from the
current paper OPF system to an electronic system. Some federal agencies have already
converted and many others are in the process of doing so. Agencies converting from paper to
electronic OPFs can reduce paperwork, storage space, and staff hours to maintain the files. In
addition, electronic OPFs may improve the accuracy of files, and provide better access to
employees requesting to review their own records.

Due to the importance of OPFs, the current Federal emphasis on protecting Personally
Identifiable Information (PII), and the attention to this issue by the Office of Management and
Budget (OMB), as part of the President’s Management Agenda, the Office of Inspector General
(OIG) added this survey review to its 2007 Annual Performance Plan. Our objectives were to
determine whether NCUA is accurately maintaining and storing OPFs, and to evaluate the
agency’s ability to migrate to an electronic OPF system. Our primary office of review was the
NCUA Office of Human Resources (OHR).

We Reviewed OPM Requirements and Guidance as well as NCUA OHR Internal Controls

We concluded that the NCUA OHR is aware of OPM’s regulatory requirements and guidance
for compiling and maintaining OPFs. However, OHR reported that, with the exception of its
Physical Security Plan (security plan) which addresses disaster recovery planning, it has no
written internal control procedures, such as document checklists or management monitoring
reports, to ensure that OHR staff members are fully complying with OPM requirements. We
determined that OHR can, by developing its own internal control procedures, ensure that it is
better adhering to OPM requirements and guidance and, consequently, ensure the accuracy and
completeness of the OPFs it maintains.

We Reviewed NCUA’s Maintenance of OPFs and Performed a Sample Review of 30 OPFs

We concluded that OHR could improve its maintenance of OPFs. Specifically, we observed that
OHR needs to develop formal internal control procedures to ensure that OHR staff is
maintaining OPF documentation in a complete and accurate manner. This is especially
important as OHR considers transitioning in the future to an electronic OPF system. During our
sample review, we observed that the documentation maintained in OPFs for the past five years
was generally complete. However, in this same sample, we found that for the complete time
frame of the OPF, over 50% of the OPFs were either incomplete or contained errors.
Consequently, our report contains three recommendations for operational improvement.




                                             1
We Reviewed NCUA Plans and Ability to Transition to Electronic OPF; eOPF; and Image Now
We concluded that NCUA does not now have electronic Official Personnel Folders (OPF) or the
current ability to transition to an electronic OPF sanctioned by the Office of Personnel
Management (OPM). We observed the OHR is interested in converting to electronic OPFs, and
has taken steps to obtain information preparatory to selection of the eOPF system approved by
and supported by OPM.

We also determined that NCUA dose not have a completed electronic image of OPFs for the
purpose of disaster recovery. Our report contains one recommendation for operational
improvement in this area.




                                            2
                                      BACKGROUND


The Official Personnel Folder (OPF) is a file containing records that cover an individual’s
employment history. Federal agencies, including NCUA, maintain OPFs for federal employees
in accordance with Title 5, Code of Federal Regulations, Part 293 as well as OPM’s Guide to
Federal Recordkeeping (Guide). The long-term records included in an OPF protect the legal and
financial rights of the Government and the employee. OPFs are part of OPM’s system of records
under the Privacy Act of 1974, as amended (5 U.S.C. 552a) and OPM, therefore, owns the
personnel folder and its contents, even though individual agencies maintain the files for their
respective employees. Part 293, the Privacy Act, and OPM’s Guide all contain rules for
creating, maintaining, using, providing access to, and disposing of the OPF. According to the
Guide, certain documents should be filed in an OPF on a permanent basis, some on a temporary
basis, and some documents should never be filed in an OPF.

OPM regulations do not require agencies to maintain electronic OPFs. NCUA currently
maintains OPFs in hardcopy (paper) form, although it has commenced electronic scanning of
personnel action documents with the ImageNow system in the past few years. For the agency to
transition to a comprehensive electronic OPF system, NCUA must receive prior approval from
OPM of the system it intends to use. OHR is currently evaluating an OPM-approved electronic
version, entitled eOPF, offered by OPM.

In addition to the guidance provided by OPM primarily in The Guide to Personnel
Recordkeeping, the NCUA Office of Human Resources has implemented a Physical Security
Plan that is reviewed and updated annually. The security plan names a security officer; and
addresses standard operations procedures for the office, and OPF file security. Other guidance is
addressed in the agenda and flow-chart for staff training for the Image Now system maintained
by the Office of the Chief Information Officer (OCIO). The Image Now system is used by OHR
to scan personnel action documents permanently maintained in the OPF. These scanned
documents are stored as part of NCUA’s disaster recovery backup of the hard copy OPFs.




                                              3
                             PURPOSE AND OBJECTIVES


The OIG performed this OPF review because of the importance of the following: (1) the privacy
interests inherent in OPFs; (2) the significance of the service performed by OHR in maintaining
the OPFs and making them available for viewing by NCUA employees; and (3) OHR’s
consideration to migrate to a comprehensive electronic OPF system.

Our survey objective was to determine how NCUA is maintaining and storing accurate Official
Personnel Files and their ability to migrate to an electronic system. The primary office for the
review was OHR.


                            SCOPE AND METHODOLOGY


We conducted our review of OPFs in June and July 2007. We looked at the requirements for
maintaining OPFs and OHR’s compliance with those requirements. In this regard, we performed
a sampling of individual OPFs and evaluated what we found there. We also looked at the
agency’s plans for and current progress toward migrating to an electronic OPF system.

To meet our survey objectives we:

       1. Identified and performed a limited review of OPM and other legal requirements
          affecting OPFs;

       2. Identified and reviewed OPM and OHR guidance for maintaining OPFs;

       3. Interviewed NCUA OHR and OCIO staff members; and

       4. Identified and selected for review a random sample of 30 of NCUA’s 949 OPFs for
          completeness and accuracy of information.

This survey work was performed preparatory to performing an audit in this area.

This survey was performed in accordance with Generally Accepted Government Auditing
Standards.




                                              4
                                         RESULTS


                        OPF Requirements and NCUA Internal Controls

We concluded that while the NCUA OHR is aware of OPM’s requirements and guidelines for
preparing and maintaining OPFs, it needs to improve its adherence to those requirements. In
particular, we found that OHR should ensure that OPF document development, maintenance,
safeguarding, and access principles comply with OPM regulations, the Guide, and Privacy Act
regulations.

Moreover, we found that OHR needs to develop its own internal control procedures for OPFs
that conform to the OPM regulations and the Guide. As reported above, we found that OHR does
not have its own internal OPF control procedures, such as document checklists or management
monitoring reports. Rather, OHR management informed us that “Requests for Personnel
Actions” (SF 52) are reviewed at the time of the action, along with an informal review of the
OPF. OHR supervisors informed us that they plan to formalize a more comprehensive OPF
review procedure.

With regard to the issue of employee access to his or her OPF, we found that OHR’s practice is
to: (1) permit the employee to view the original OPF at the OHR offices in the Central Office; or
(2) photocopy and send the reproduced OPF to the employee by Federal Express service. We
concluded that OHR should ensure that when it develops its internal control procedures, they
should address compliance with OPM and Privacy Act requirements governing employee access
and privacy

                                  OHR Maintenance of OPFs

We randomly selected for review 30 OPFs from the current directory listing of 949 NCUA
employees. The purpose of our sample review was to determine whether the OPFs were
complete and accurate with reference to items identified by OPM on their OPF Review checklist.
We modified our sample checklist from the OPM-supplied checklist to emphasize the following
permanent documents: (1) Notification of Personnel Action forms (SF 50); (2) health insurance,
life insurance, and Thrift Savings Plan election forms; and (3) certain other documents. During
our sample review, we also looked the status of documents filed in the OPF (permanent versus
temporary), and whether the OPF contained prohibited documentation that should not have been
filed in the OPF. We observed that in general, the documentation filed within the most recent
five year period appeared to be complete.

However, when we looked at documents filed in the sample OPFs for the complete time frame of
the OPFs reviewed, we observed that over 50 percent were either incomplete and/or had errors.
Incompletions and inaccuracies included missing Standard Form (SF) 50’s; SF 50’s that were
not signed by an appropriate official; documents misfiled or out of chronological order; and
OPFs that contained prohibited documents. Specifically, we observed the following: (1) thirty
seven percent of the folders contained documents that showed corrections (such as crossed out

                                              5
information) or that needed corrections; (2) thirty percent of the folders appeared to be lacking at
least one SF 50, primarily for pay adjustment actions; (3) twenty seven percent of the folders
contained SF 50s not signed by the approving official; (4) twenty three percent of the folders
contained documents not properly filed in the folder; and (5) seventeen percent of the folders
contained documents not filed in chronological order.

Based upon our sample review and discussions with OHR staff, we made three
recommendations.

Recommendation 1
OHR should develop formal OPF internal control procedures. The procedures should address
the OHR’s compliance with OPM’s requirements and guidance for accuracy and completeness
of the OPFs.

Management Response
OHR’s Division of Staffing, Classification and Pay is drafting various standard operating
procedures (SOPs) relating to the maintenance (i.e., accuracy and completeness) of OPFs. In
OHR’s 2008 budget submission, it has requested $100,000 for OPF review and clean-up, and
evaluation of processing methods.

OIG Response
We agree with the planned corrective action.

Recommendation 2
The internal control procedures should require development of management reports and
checklists as needed to monitor OPF activity in the department and to ensure consistency and
timeliness in the procedures’ application.

Management Response
OHR will develop checklists, in accordance with the guidance outlined in the “Guide to
Personnel Recordkeeping,” which will address managerial oversight and control of the OPF
maintenance SOPs referenced above.

OIG Response
We agree with the planned corrective action.

Recommendation 3
OHR should review all NCUA OPFs and make appropriate corrections to ensure that all
documentation in every OPF is currently accurate, up-to-date, and ready for migration to an
electronic OPF system.

Management Response
OHR plans to perform OPF clean up in compliance with the “Guide to Personnel
Recordkeeping” as well as for the migration to the electronic OPF format in the next few years.
OIG Response
We agree with the planned corrective action.

                                               6
              NCUA Ability to Transition to Electronic Official Personnel Folders

Based upon our review of OPM requirements and discussions with OHR and OCIO staff, we
concluded that NCUA has not yet migrated to an electronic OPF system; nor is it currently able
to transition to an electronic system that would meet with OPM’s approval. We found that in its
tentative exploration of electronic OPF systems, OHR has expressed particular interest in the
e-OPF system approved and offered by OPM through an OPM contractor.

As stated previously in this report, OPM does not presently require that agencies maintain, store,
and provide access to OPFs electronically. NCUA currently maintains OPFs in paper form.
However, consonant with the Federal Government’s e-Gov initiatives which advocate a
paperless environment, OPM has accepted leadership for five initiatives that fall within the
human resources line of business. Under the Enterprise Human Resources Integration (EHRI)
initiative, a primary goal is for all agencies to transition from paper to electronic OPFs. The
Federal Government believes the elimination of paper OPFs will benefit agencies by achieving
significant cost savings due to the reduction/elimination of paper (filing, printing, copying, and
mailing), while simultaneously improving accuracy of and accessibility to the folders. This, in
turn, would improve the efficiency of agency human resources departments.

Agencies that want to create and maintain electronic versions of the OPF must seek approval
from the sponsoring agency. OPM is the sponsoring agency for most of the forms in the OPF.
As the sponsoring agency, OPM has established procedures for approving electronic OPF
systems.

The eOPF System

The eOPF is an electronic version of hard copy OPFs approved by OPM. The OPM eOPF
system houses Federal employees’ digitized paper OPFs. In FY 2006, eleven agencies moved to
an eOPF module. OPM has developed performance metrics to increase the number of personnel
records converted and to increase the number of agencies using eOPF. The metrics are
contingent on the agencies’ ability to provide funding for their conversions.

In January 2007, OHR began to give serious consideration to e-OPF system. Recently, OHR
recommended that NCUA should convert to the eOPF system because it is currently the only
OPM-certified system. In addition, NCUA uses the same personnel information collection
system as OPM. In reviewing OPM’s Strategic and Operational Plan for 2006-2010, OHR
identified OPM’s goal that, by October 1, 2010, 90 percent of all paper OPFs would be
converted to an electronic format. OHR hosted an initial OPM presentation of the eOPF system
in May, 2007, and a follow-up presentation in July, 2007. At the July presentation, attendees
included representatives from OHR, the Office of the Executive Director (OED), OCIO, and
OIG. At that presentation, OPM indicated that 28 agencies or component offices/bureaus of
agencies already have or are in the process of transitioning to the eOPF system.

ImageNow

                                              7
In February 2003, the OHR determined NCUA should have a process in place to image copy
certain critical OPF documents to maintain a backup to the OPF in the event of a disaster at
NCUA headquarters. The OHR focus in using the imaging was to meet disaster recovery needs.
The OCIO researched options for an image-based document management system. A contract
was awarded for the ImageNow software system in October 2003. Training on the system was
performed in December 2003. System implementation began in January 2004. Initial scanning
of documents filed on the right hand side of the OPF (permanent records) was completed for all
OPFs in May 2004.

Since May 2004, when OHR first completed electronic imaging of permanent records in the
OPFs with the ImageNow system, consistency in scanning documents has fallen off, and
electronic versions of some documents—essential for disaster recovery purposes--have not been
maintained or are otherwise missing documents. OHR informed us that they are currently
scanning documents again, but it still needs to go back and determine the earlier work that was
not scanned. Because OHR does not maintain logs or have a formal process in place to
determine scanning progress and/or completion, we were unable to determine the extent of
missing documents. OHR explained that imaging is not up-to-date because the system was down
from January 2005 through April 2005, and those documents that should have been imaged
during that time period were not.

OCIO provides trouble-shooting and servicing to OHR for the ImageNow system. Moreover,
NCUA recently approved Share Point as an intranet application with an ImageNow plug for
implementation in 2007. Other departments and OHR will be able to use the Share Point /
ImageNow applications at no cost to them. OCIO indicated it would be possible for OHR to
transition from ImageNow to Share Point and ultimately, to transition to an electronic OPF
system.

OPM has not certified ImageNow for use as an electronic OPF system. As explained above,
NCUA used the ImageNow system to scan permanent records filed in the OPFs (SF 50’s) as part
of the agency’s disaster recovery plan. While the imaged documents are stored electronically on
the NCUA computer system, they do not constitute an electronic OPF system.

Recommendation 4
If NCUA plans to continue to use OPF documents scanned into the ImageNow system for
disaster recovery purposes, then the OHR should determine what required documents have not
been scanned and correct any backlog as soon as possible.

Management Response
ImageNow was experiencing problems from April 2005 through December 2006 and again April
2007 to June 2007. Based on those dates OHR can determine what documents in the OPF that
still needs to be scanned and will ensure that these documents are scanned. However, those
missing imaged documents would not prevent OHR from reconstructing an OPF. OHR does not
solely depend on ImageNow as a source of OPF reconstruction. According to the “Guide to
Personnel Recordkeeping” a transcript of service, which is a summary of all personnel actions


                                             8
processed, serves as the official documentation for OPF reconstruction. OPM maintains these
transcripts and provides them to agencies upon request.

OIG Response
We agree with the proposed action to ensure all documents are scanned. We did not question in
the report that OPM is the source for reconstruction of OPFs. However, NCUA is utilizing
ImageNow for OPFs for its use in disaster recovery. If the images are not up to date then NCUA
does not have an adequate system for its COOP. We agree that the action taken to scan the
remaining documents will provide the agency with OPF back up for disaster recovery purposes.




                                            9
APPENDIX A – MANAGEMENT COMMENTS


TO:           William DeSarno, Inspector General
              Office of the Inspector General

FROM:         J. Leonard Skiles, Executive Director /S/

SUBJ:         Comment on Draft Report of NCUA’s Official Personnel Folders

DATE:         September 21, 2007

This is in response to the draft report entitled “Review of NCUA’s Official Personnel
Folders” conducted by your staff in August. The report included recommendations
based on a sample review of 30 official personnel folders (OPFs). The Office of Human
Resources (OHR) maintains 946 OPFs. The following comments are in response to the
recommendations in that report.

        Recommendation #1 – OHR should develop formal OPF control procedures.
        The procedures should address the OHR’s compliance with OPM’s requirements
        and guidance for accuracy and completeness of the Off’s.

        OHR’s Division of Staffing, Classification and Pay is drafting various standard
        operating procedures (SOPs) relating to the maintenance (i.e., accuracy and
        completeness) of OPFs. In OHR’s 2008 budget submission, it has requested
        $100,000 for OPF review and clean-up, and evaluation of processing methods.

        Recommendation #2 – The internal control procedures should require
        development of management reports and checklists as needed to monitor OPF
        activity in the department and to ensure consistent and timeliness in the
        procedures’ application.

        OHR will develop checklists, in accordance with the guidance outlined in the
        “Guide to Personnel Recordkeeping,” which will address managerial oversight
        and control of the OPF maintenance SOPs referenced above.

        Recommendation #3 – OHR should review all NCUA OPFs and make
        appropriate corrections to ensure that all documentation in every OPF is currently
        accurate, up-to-date, and ready for migration to an electronic OPF system.

        OHR plans to perform OPF clean up in compliance with the “Guide to Personnel
        Recordkeeping” as well as for the migration to the electronic OPF format in the
        next few years.




                                          10
       Recommendation #4 – If NCUA plans to continue to use OPF documents
       scanned into the ImageNow system for disaster recovery purposes, then the
       OHR should determine what required documents have not been scanned and
       correct any backlog as soon as possible.

       ImageNow was experiencing problems from April 2005 through December 2006
       and again April 2007 to June 2007. Based on those dates OHR can determine
       what documents in the OPF that still needs to be scanned and will ensure that
       these documents are scanned. However, those missing imaged documents
       would not prevent OHR from reconstructing an OPF. OHR does not solely
       depend on ImageNow as a source of OPF reconstruction. According to the
       “Guide to Personnel Recordkeeping” a transcript of service, which is a summary
       of all personnel actions processed, serves as the official documentation for OPF
       reconstruction. OPM maintains these transcripts and provides them to agencies
       upon request.

OHR staff also reviewed the survey sample. Based on that review OHR found13, of the
30 OPFs reviewed, not in compliance with the Guide to Personnel Recordkeeping” and
the “Guide to Processing Personnel Actions.” Within the 13 OPFs the following
discrepancies were found:

   •   1 SF-50 missing
   •   8 Prohibited documentation in 2 OPFs
   •   11 Misfiled documents in 8 OPFs
   •   9 Documents not in chronological order in 3 OPFs
   •   3 Unexplained erasures in 3 OPFs
   •   All personnel actions requiring a signature were signed (Pay adjustments do not
       require a signature)

Attached is a spreadsheet of those findings based on OHR’s review of the OPFs in the
survey. Thank you for the opportunity to comment on your report.

Note: The OIG did not include the spreadsheet in the appendix because it contains
personally identifiable information. However, NCUA summarizes the results of the
spreadsheet in the bullets above.




                                         11
